     EXECUTIVE SUMMARY

   THE DRUG ENFORCEMENT
ADMINISTRATION’S PAYMENTS TO
   CONFIDENTIAL SOURCES

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division
           THE DRUG ENFORCEMENT ADMINISTRATION’S
             PAYMENTS TO CONFIDENTIAL SOURCES

                             EXECUTIVE SUMMARY

      The Confidential Source program is an important tool used by the Drug
Enforcement Administration (DEA).1 DEA officials state that without
confidential sources, the DEA could not effectively enforce the controlled
substances laws of the United States. Confidential sources come from all
walks of life and are significant to initiating investigations and providing
information or services to facilitate arrests and seizures of drugs and cash.
According to the DEA, it has approximately 4,000 active confidential sources
at any one time.

      Although confidential sources can be critical to an investigation, special
care must be taken to carefully evaluate and closely supervise their use.
Confidential sources can be motivated by many factors, including fear,
financial gain, avoidance of punishment, competition, and revenge;
therefore, the credibility of a source must be balanced against the
information they provide. Widely publicized cases of informants utilized by
the Federal Bureau of Investigation and the DEA gone awry highlight the
need for special care and guidance in dealing with such confidential sources.
Recognizing the need for guidance in dealing with confidential sources, in
May 2002 the Attorney General issued revised Attorney General Guidelines
Regarding the Use of Confidential Informants (Attorney General Guidelines),
with which Justice law enforcement agents are required to comply.

      The Office of the Inspector General (OIG) initiated this audit to assess
the DEA’s compliance with regulations concerning confidential informants
and the DEA’s controls over confidential source payments. To conduct our
audit, among other things, we researched the DEA’s Confidential Source
program by reviewing pertinent documents, including the four versions of
the DEA Agent Manual in effect since 1998; the DEA Financial Handbook,
undated (obtained from the DEA in May 2003); and the Attorney General
Guidelines. In addition, we reviewed the DEA’s process of establishing,

       1
          The Attorney General Guidelines Regarding the Use of Confidential Informants
uses the term “Confidential Informant,” while the DEA uses the term “Confidential Source.”
Both terms refer to any individual who provides useful and credible information to a
Department of Justice (DOJ) law enforcement agent regarding criminal activities, and from
whom the DOJ law enforcement agent expects or intends to obtain additional useful and
credible information regarding such activities in the future. For consistency throughout this
report we use the term “Confidential Source.”
paying, and monitoring confidential sources, and we interviewed DEA agents
and finance personnel in headquarters and seven DEA field offices.

      The following summarizes the major findings of the OIG’s report. The
OIG’s full 126-page report contains information that the DEA considers
sensitive law enforcement information that cannot be publicly released.
However, the full report has been provided to the DEA, Department officials,
and congressional committees with oversight of the DEA.

OIG FINDINGS

The DEA Can Improve Risk Management Over the Use of Confidential
Sources

      The risks surrounding the use of confidential sources challenge the
DEA to ensure that sources are not only credible, but also that agents do not
develop close financial or personal relationships with sources that could
compromise a case. Managing confidential sources requires the DEA to
constantly assess the risk for each source it utilizes. In this context, risk
assessment is the continual identification and analysis of relevant adverse
factors that are weighed against the potential benefit of using the
confidential source. Although the DEA has adopted policies and procedures
to manage the risk of using confidential sources, we found that the DEA can
improve its risk management in the following areas: 1) initial suitability
reporting and recommendations, 2) categorization of confidential sources,
3) continuing suitability reporting and recommendation, 4) review of long-
term confidential sources, and 5) maintenance of impeachment information.

Initial Suitability Reporting and Recommendations

      The Attorney General Guidelines outline requirements that the DEA
must fulfill before activating a confidential source. Specifically, case agents
for confidential sources need to complete and sign a written Initial Suitability
Report and Recommendation that addresses specific risk factors, or indicate
on the report that a particular factor is not applicable.2 According to the DEA
Agent Manual, although a suitability statement need not consist of more
than one paragraph, it must detail the specific benefits of utilizing the source
and provide the reasons for utilizing a source despite any adverse
information.




      2
           Examples of suitability factors are criminal background and prior record as a
witness.


                                          -2-
      Our audit found that most written initial suitability assessments did not
address the specific risk assessment factors. The majority of suitability
statements had general statements indicating, in essence, that the benefits
of using the confidential source outweighed the risks, without specifying
either the benefits or the risks. These descriptions do not meet the
requirements of the DEA Agent Manual or the Attorney General Guidelines
that suitability statements detail the specific benefits of utilizing the
confidential source despite the identified risk factors.

       Moreover, DEA training information stated that written risk
assessments of potential confidential sources were not required and were to
be performed at the discretion of the Special Agent in Charge. In fact, one
division office had a formal divisional order that stated agents were not to
write risk assessments, another office issued guidance that stated a
separate written risk assessment was no longer necessary, and a Special
Agent in Charge in a third office waived the requirement to document risk
assessments. The fact that DEA does not require a written suitability report
that addresses all the specific factors in the Attorney General Guidelines
means the DEA Agent Manual is not in compliance with the Attorney General
Guidelines.

      We believe that a written, comprehensive initial suitability risk
assessment is critical to measuring the benefits of utilizing a confidential
source, and it could help other agents who want to use the confidential
source but may be unaware of pertinent derogatory information concerning
the source. In addition, this risk assessment should guide the nature and
extent of confidential source monitoring.

Categorization of Confidential Sources

       A confidential source can be categorized into one of several
classifications. How a confidential source is categorized determines the
nature and extent of monitoring an agent performs. Despite the importance
of appropriately categorizing a confidential source, the DEA does not require
agents to document their rationale for how a confidential source is
categorized. Our audit revealed instances where we had concerns with the
DEA’s categorization decisions. This finding highlights the need for a
documented rationale for the categorization of confidential sources.

Continuing Suitability Reporting and Recommendations

      Once a confidential source has been established, the Attorney General
Guidelines require the case agent to review, at least annually, the
confidential source’s file and complete and sign a written Continuing


                                  -3-
Suitability Report and Recommendation that must be forwarded to a field
manager for written approval. The purpose of the Continuing Suitability
Report and Recommendation is to determine whether the risk of using a
source has changed since the initial evaluation and whether the confidential
source should continue to be utilized. In completing the Continuing
Suitability Report and Recommendation, the case agent must address the
same factors outlined in the initial suitability determination (or indicate that
a particular factor is not applicable), the length of time that the individual
has been registered as a confidential source, and the length of time the
source was handled by the same agent.

       Instead of an annual review, the DEA requires first-line supervisors
and controlling agents to perform Quarterly Management Reviews of
Confidential Source Utilization (Quarterly Management Review) on each
active confidential source. Our audit revealed that none of the Quarterly
Management Reviews addressed all continuing suitability factors outlined in
the Attorney General Guidelines. Although some of the factors were
addressed, most reviews contained generic or boilerplate statements such as
“no changes in biographic information.” Given that the initial suitability
report is generally not written and therefore does not provide information on
all suitability factors, the lack of specific information in the Quarterly
Management Reviews makes it even more difficult to determine if agents are
aware of the risks of using the source and are taking these risks into
consideration when determining if the confidential source is suitable and the
extent they should be monitored.

Review of Long-Term Confidential Sources

      One of the purposes of the Attorney General Guidelines is to provide
more oversight of agents handling confidential sources by having individuals
who are not as close to confidential sources make critical decisions over
payments and other matters. The Attorney General Guidelines require a
“Confidential Informant Review Committee” to review confidential sources
who have been active for more than six consecutive years, and to the extent
such a confidential source remains active, every six years thereafter.

       Prior to November 2003, the DEA had not reviewed matters relative to
its long-term confidential sources. Although the DEA has since appointed a
committee and started reviewing matters relative to DEA long-term
confidential sources, we found that the committee’s review is limited to
summary information rather than actual confidential source files.

      Further, the DEA has no rating system to assess the quality of the
information provided or services rendered by confidential sources. Instead,


                                   -4-
it relies on an agent’s knowledge and skill to assess whether a confidential
source is effective.

        We believe the DEA should strengthen its management over long-
term confidential sources. We believe the Committee relies too heavily on
the Headquarters Confidential Source Unit and Special Agents in Charge
because the DEA does not adequately document required suitability factors
in its initial suitability report and its Quarterly Management Reviews. In our
view, the Committee should provide a high-level, independent review of
long-term confidential sources. If the committee relies solely on the Special
Agents in Charge and the Headquarters Confidential Source Unit without
independently reviewing pertinent original information itself, the value of its
oversight is significantly diminished.

Maintenance of DEA Impeachment Information

       The DEA Agent Manual requires agents to provide prosecutors with all
discoverable information pertaining to any confidential source who may be
utilized as a witness. This information includes payments to the confidential
source, any oral or written agreements between the DEA and the
confidential source, and any impeachment information known by the DEA
that may affect the credibility of the confidential source.

      The DEA relies on agents to perform manual searches of the
confidential source files in order to report discovery information. As noted
previously, the DEA does not detail the confidential source’s suitability either
when initially establishing the source or during the quarterly review.
Therefore, it may be difficult for an agent who was not present at either the
establishment or quarterly briefing of a confidential source to discover
impeachment information. We believe the DEA can improve its tracking of
impeachment information by adding such information to an existing DEA
database.

The DEA Lacks an Effective and Accurate Confidential Source
Payment System

      The DEA is required by the Attorney General Guidelines to establish
accounting and reconciliation procedures that reflect all monies paid to
confidential sources. Our audit identified deficiencies in the DEA’s
accounting and reconciliation of confidential source payments that led us to
conclude that the DEA does not have an effective confidential source
payment tracking system. Specifically, we found deficiencies with the
accounting and monitoring of calendar year and lifetime payments, problems
with the systems used to account for confidential source payments, and


                                  -5-
control breakdowns that indicate closer supervisory oversight of confidential
source payments is needed.

Accounting and Monitoring of Annual and Aggregate Payments

      The Attorney General Guidelines state that payments to a confidential
source that exceed an aggregate of $100,000 within a one-year period shall
be made only with the authorization of a senior field manager and the
express approval of a designated senior headquarters official. In addition,
regardless of the timeframe, any payments to a confidential source that
exceed an aggregate of $200,000 should be made only with the
authorization of a senior field manager and the express approval of a
designated senior headquarters official. Our audit revealed weaknesses with
how the DEA accounts for non-appropriated funds, and monitors calendar
year and lifetime payments; therefore, we could not determine if the
appropriate approvals were obtained.

      Accounting for Non-Appropriated Funds. The DEA Agent Manual states
that only DEA-appropriated funds will be included in the determination of
calendar year and lifetime payment amounts. The Attorney General
Guidelines do not distinguish between appropriated and non-appropriated
funds. The DEA Agent Manual goes on to say that all confidential source
payments using appropriated funds or funds from other agencies must be
documented. However, payments using non-appropriated funds – such as
High Intensity Drug Trafficking Areas (HIDTA) funds – were not considered
by the DEA in determining whether payments to a confidential source exceed
calendar year or lifetime payment caps. Further, the DEA could not provide
the OIG with the total confidential source payments using HIDTA funds.

       Monitoring Calendar Year and Lifetime Payments. In addition to not
counting non-appropriated funds towards the calendar year and lifetime
payments, we noted other problems with how the DEA monitors annual
(calendar year) and aggregate (lifetime) payments. During our audit, DEA
officials first stated that its payment database monitors the annual and
lifetime payments and “flags” payments that put the totals over the limits.
The flag is supposed to signal that headquarters approval is required to
exceed the cap; however, it does not prevent the payment.

      In addition, we were informed by both the former and current Section
Chief of the Confidential Source Unit, numerous DEA agents, and five of the
seven Confidential Source Coordinators for the offices we visited that the
database is unreliable. Among the problems were time lags in processing
the payments, a lack of quality controls, and a communication disconnect
between the DEA Office of Finance and the Confidential Source Unit


                                 -6-
regarding who is responsible for the database and correcting any problems.
A DEA official said that incomplete records in the data make it impossible to
perform a proper audit of a confidential source’s payment history.

      Later during the audit, the DEA stated that Confidential Source
Coordinators monitor the calendar year and lifetime payments by manually
adding up the payments listed in the confidential source files. Yet,
confidential sources could be active in more than one office, so Confidential
Source Coordinators must contact all offices in which the source is active to
arrive at a source’s total calendar year and lifetime payments.

Problems with the Systems Used to Account for Confidential Source
Payments

      Although the DEA has made enhancements to its confidential source
payment systems, more can be done. During our audit, we noted controls
could be strengthened by ensuring that inactive sources and closed cases
are deactivated from the confidential source payment system. In addition,
the DEA should continue enhancing the interface between its payment
systems and also implement an audit trail to identify what changes are made
to the electronic records.

Review of Payments

      We also found problems with DEA payments to confidential sources,
which indicate closer supervisory oversight of confidential source payments
is needed. For example, many payments did not specify the payment type,
had more than one type of payment specified, or the remarks describing the
payment did not correspond to the payment type selected. Even though
payments either were incomplete or in error, a supervisor had approved
them. Such errors would make it difficult to accurately respond to a
prosecutor’s request to list payments to a confidential source by type of
payment.

       Our audit determined that in completing payment documentation,
agents did not always include a brief synopsis of the basis or justification for
the payment, the source of funds (if funding was provided by another
agency), and a citation to the Report of Investigation or teletype that
explains or justifies the payment. Given the wide latitude agents have in
determining the amount of payments and the confidential nature of the
transactions, the justification for the payment should be specifically
identified. Without a specific justification, supervisory officials could not
accurately determine if a payment is reasonable or appropriate.



                                   -7-
      In addition, many payments did not include receipts or any description
of the expenditure, other than generic descriptions such as “expenses
incurred” or “U/C expenses.” It is important that the expense description be
specific given the wide latitude agents have in determining the amounts of
the payments and the confidential nature of the transactions. The lack of
receipts and the inadequate descriptions of the expenses create a lax
internal control environment where payments may be approved that are not
reasonable, appropriate, or justified. We believe that the DEA supervisors
need to improve their oversight over reimbursements.

Conclusion and Recommendations

        Our audit identified areas where the DEA can improve its
management of the use of confidential sources. We found that Initial and
Continuing Suitability Reports and Recommendations were not adequately
documented. These assessments are important in assessing the risks of
utilizing a confidential source and should determine the nature and extent of
confidential source monitoring. We also found instances where multiple DEA
offices categorized the same source differently and improperly categorized
other sources. Further, the DEA’s failure to independently review and
evaluate underlying suitability data diminishes the value of this high-level
oversight function.

       We also concluded that the DEA does not have an effective system
that accounts for and reconciles all confidential source payments. The DEA
relies on a manual process to provide payment information during discovery
and to determine if payments to confidential sources exceeded calendar year
and lifetime caps. This manual process is time-consuming, prone to error,
and could adversely affect the DEA’s ability to provide accurate confidential
source payment information.

       We made 12 recommendations to help the DEA improve its
management of confidential sources. Among these recommendations are for
the DEA to require comprehensive written Initial and Continuing Suitability
Reports that address all of the factors specified in the Attorney General
Guidelines; require that the Committee either review the confidential source
files for all long-term confidential sources, or review the written Initial and
Continuing Suitability Reports and Recommendations and document their
findings; add a module to an existing database system to track confidential
source impeachment information; and account for all payments made to a
confidential source by the DEA, not just payments using DEA-appropriated
funds.




                                  -8-
      The DEA agreed with most of the recommendations and stated that it
would take corrective action or had already taken action to address the
OIG’s recommendations.




                               -9-
